POSTAL REGULATORY COMMISSION
  OFFICE OF INSPECTOR GENERAL




  SEMIANNUAL REPORT TO CONGRESS

    October 1, 2011 through March 31, 2012
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information ........................................................................... 8
INTRODUCTION
    THE POSTAL REGULATORY COMMISSION
         The Postal Regulatory Commission (PRC) is an independent federal agency
         established (as the Postal Rate Commission) by the Postal Reorganization Act of
         1970. From its establishment through the enactment of the Postal Accountability
         and Enhancement Act (PAEA) of 2006, the Commission primarily received
         United States Postal Service proposals for domestic mail rates and classifications,
         presided over litigation regarding those proposals, and recommended rates and
         classifications to the Board of Governors of the United States Postal Service.
         PAEA, which was enacted on December 20, 2006, re-designated the Commission,
         expanded its jurisdiction to include international mail and service standards, and
         charged the Commission with implementing a new system of postal rate
         regulation.

         The PRC consists of five Commissioners who are appointed for six-year terms by
         the President, with the advice and consent of the Senate. No more than three of
         the Commissioners can be members of the same political party. The President
         designates one of the Commissioners to serve as Chairman, and the
         Commissioners, by majority vote, select one Commissioner to serve as Vice
         Chairman.

         During the reporting period, the PRC issued its Advisory Opinion in response to a
         request from the Postal Service on its plan to consider closing approximately
         3,600 post offices and other retail facilities. Also during the reporting period, the
         PRC issued updated procedures for the review of Postal Service determinations to
         close or consolidate post offices.

         Commissioner Robert Taub was sworn in on October 8, 2011, replacing
         Commissioner Hammond, while Commissioner Mark Acton began his second
         term. In January, 2012, Nanci E. Langley was elected Vice Chairman, succeeding
         Commissioner Acton. On December 5, 2011, former Commissioner
         Tony Hammond was nominated to fill the remainder of former Commissioner
         Blair’s term.

THE OFFICE OF INSPECTOR GENERAL
         The Commission established the Office of Inspector General (OIG) on June 15,
         2007 and hired the first Inspector General on June 23, 2007. During the
         reporting period, OIG had three full-time employees—the Inspector General, a
         senior auditor and an administrative assistant. OIG was assisted in the conduct of
         its audits and inspections during the reporting period by auditors and evaluators
         on detail from the Postal Service Office of Inspector General.



                                           2
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDITS AND EVALUATIONS
        Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
        General provides policy direction and conducts, supervises and coordinates audits
        relating to programs and operations of the Postal Regulatory Commission.

        OIG did not issue any audits or evaluations during the reporting period.

        ONGOING AUDITS AND EVALUATIONS

        During the reporting period, OIG initiated an audit on PRC purchase card usage.
        Our objective was to determine whether PRC’s purchases complied with policies,
        were supported, and made for business purposes. This audit was ongoing at the
        close of the reporting period.

        During the reporting period, OIG collaborated with the United States Postal
        Service’s Office of Inspector General on a review of the Postal Service’s and
        PRC’s costs for handling appeals of retail facility closures. Joint discussions and
        efforts were ongoing at the close of the reporting period.

    INVESTIGATIVE ACTIVITIES

        Under the IG Act, OIG receives and investigates allegations of fraud, waste,
        abuse and misconduct within the PRC’s programs and operations. OIG
        investigations can give rise to administrative, civil and criminal penalties.

        In order to facilitate reporting of allegations, OIG maintains a hotline (see
        “Contacting the Office of Inspector General,” Page 8). During the reporting
        period, OIG received hotline contacts via postal mail, electronic mail and
        telephone. Many were complaints regarding the United States Postal Service,
        which OIG forwarded for action.

        During the reporting period, OIG referred one matter for prosecution involving
        allegations of misappropriation of PRC funds and other misconduct from 2005 to
        2009 by a former employee. The U.S. Attorney for the District of Columbia
        declined to prosecute.




                                         3
OTHER ACTIVITIES
    REGULATORY REVIEW

    Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed Commission
    rules and regulations. OIG was provided with no draft policies to review during
    the reporting period.

    LIAISON ACTIVITIES

    The Inspector General is a member of the Council of Inspectors General on
    Integrity and Efficiency (CIGIE), which was established on October 14, 2008,
    pursuant to the Inspector General Reform Act of 2008. During the reporting
    period, the Inspector General attended monthly meetings of CIGIE as well as
    meetings of CIGIE’s Legislation and Information Technology Committees.

    PEER REVIEW

    At the close of the reporting period, OIG received its first peer review of its audit
    operation. The peer review was completed by the Federal Trade Commission
    Office of Inspector General for the period ending September 30, 2011. OIG
    received a rating of Pass, which is the highest peer-review rating, signifying that
    OIG’s system of quality control was suitably designed to provide reasonable
    assurance of performing and reporting in conformity with applicable professional
    standards. A copy of the PRC system review report is available on the OIG
    website.

    OIG is scheduled to conduct a peer review of Federal Maritime Commission’s
    audit operation for the period ending September 30, 2012.




                                      4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None

  Section 5(a)(14) Peer Review Activity                                              Page 4




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     0             0              0             0
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        0             0              0             0
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 0           0               0
     reporting period.


                        Subtotals (A+B)          0           0               0


C.   For which a management decision
                                                                             0
     was made during the reporting               0           0
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.




                                     8
